March 26, 2021
Via Electronic Filing
Mr. Scott Harris, Clerk
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

Robert Phillip Ivers v. United States, No. 20-7304
Consent to Law Professors to File Amici Curiae Brief

Dear Mr. Harris:
I am counsel of record for Petitioner Robert Ivers.
In accordance with Rule 37.2(a) of the Rules of the Supreme Court
of the United States, the Petitioner specifically grants consent to
Professor William M. Janssen and other law professors to file an amici
curiae brief in support of the Petitioner in this case. The Petitioner further
grants blanket consent to the filing of amicus curiae briefs in support of
either or neither party in this case.
Very respectfully,
KELLEY, WOLTER & SCOTT, P.A.

Brett D. Kelley
CJA Counsel for Petitioner
DOUGLAS A. KELLEY
STEVEN E. WOLTER
DANIEL M. SCOTT
BRETT D. KELLEY

CENTRE VILLAGE OFFICES
431 S SEVENTH ST, STE 2530
MINNEAPOLIS, MN 55415
TEL: 612.371.9090
FAX: 612.371.0574

cc:

Solicitor General of the United States

